        Department of HeaIth and Human Services

                OFFICE OF
           INSPECTOR GENERAL




            THE MEDICARE PEER REVIEW
              ORGANIZATIONS’ ROLE
        IN IDENTIFYING AND RESPONDING
              TO POOR PERFORMERS




                       &
                           #sSERVICtx
                                        %9
                   +
               $
               ~                             JUN13  GIBBS BROWN
               22                            Inspector   General
               %
                2’4+ <
                           %@a
                           2—                        DECEMBER 1995
I                                                    OEI-01-93-()()251


    —
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statuto~ mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and managementproblems and recommends courses to correct them.

                           OFFICE OF AUDIT SERVICES

The OIG’SOffice of Audit Services (OAS)provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intended to provide independentassessmentsof HHS
programs and operations in order to reduce waste, abuse, and mismanagementand to promote
economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIG’SOffice of Investigations(01) conducts criminal, civil, and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative
sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION AND INSPECTIONS

The OIG’SOffice of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections)that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendationscontained in these inspection reports
generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs. This report was prepared in the Boston regional ofilce
under the direction of Mark R. Yessian, Ph.D., Regional Inspector General, and Martha B. Kvaal,
Deputy Regional Inspector General. Project staff included:

BOSTON                                                HEADQUARTERS

Joyce M. Greenleaf, Project Leader                    Barbara Tedesco, Technical Support StaJf
Elizabeth A. Robboy
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    THE MEDICARE PEER REVIEW

      ORGANIZATIONS’ ROLE
IN IDENTIFYING AND RESPONDING
      TO POOR PERFORMERS





           ~.t$
                  #sSERVIC6$
                               ~tv

       $
       ;                             JUNE   GIBBS BROWN
       s                             Inspector   General
       %
         %
         a+ <
              “hd$a
              2                             DECEMBER 1995
                                             OEI-01-93-()()251

             EXECUTIVE                             SUMMARY


PURPOSE

To assess the ability of the Medicare Peer Review Organizations to identify and respond
to poorly performing physicians and hospitals at a time when their primary mission is to
improve the overall quality of medical care.

BACKGROUND

In carrying out their mission to protect Medicare beneficiaries, the Peer Review

Organizations (PROS) perform two basic functions. One is to contribute to improving the

overall practice of medicine by working collegially with the medical community in

analyzing patterns of care and outcomes. Their focus is on the systems of care rather than

individual caregivers. The other function is to identify and respond to poorly performing

physicians or hospitals by reviewing individual instances of questionable care and by

taking follow-up actions they deem appropriate. The former function, which aims to

improve care overall, dominates. The latter function, to identify and deal effectively with

poor performers, has always faced major constraints, many of which have been

highlighted in prior Office of Inspector General (OIG) reports.


This report draws on data from surveys of 22 PROS representing 72 percent of the

beneficiary population in the country, on aggregate data from HCFA reflecting all the

PROS’ record review workload under the fourth contract, on telephone calls with officials

from 10 State medical boards, and on information from our previous PRO inquiries.


FINDINGS

As the PRO Program becomes increasingly committed to improving the overall practice
of medicine, its ability to find and take action on poorly peiforrning physicians and
hospitals is questionable.

F	     Limited Leads. The PROS find themselves with very limited leads to identify
       poorly performing physicians or hospitals. The PROS rely on beneficiary
       complaints, referrals from the medical community, and newer approaches to
       identify poor performers. However, the beneficiary complaint process, as we
       indicated in a recent report, has signiilcant flaws; the referrals from the medical
       community remain minimal; and the new approaches have identified few leads.

E	     Limited Analysis. Once the PROS become aware of an instance of questionable
       care, they are unlikely under their current contracts to determine if it is an isolated
       event or part of a pattern of such care. The PROS do have the authority to collect
       and analyze such data. Their priorities, however, are elsewhere.




                                               i
F	     Limited Follow-Up. During their current contracts with HCFA, 10 of the 22
       PROS in our sample had not initiated any improvement plans that compel
       individual physicians or hospitals to address the quality-of-care problems. The
       other 12 initiated improvement plans in response to 146 quality-of-care
                                                                  -.             problems.
       One PRO identified half of those problems:

k	     Moribund Sanction Recommendations. The PROS’ sanction recommendations to
       the Office of Inspector General have dwindled from a high of 72 in FY 1987 to
       12, 14, 13 and 13 in FYs 1991 through 1994.

F	     Minimal Referrals to State Medical Boards. In 1993, Congress passed
       legislation requiring PROS to share information with medical boards on physicians
       found to be responsible for serious quality-of-care problems. The legislation
       appears to have had little, if any, impact on the level of such sharing.

The PROS themselves find much that is positive about the current direction of the
Program. But some express reservations about its impact on protecting Medicare
beneficiaries from poor performers.

�	     Compatible Functions. Seventeen of the 22 PROS (77 percent) in our sample
       indicated that the two basic PRO functions--improving the mainstream of care and
       dealing with poor performers--are compatible.

b	     Weakened Protections. Yet, when questioned further, 11 of 22 PROS
       (50 percent) concluded that beneficiary protections have become weaker. This
       compares to 5 (23 percent) that concluded protections have become stronger,
       4 (18 percent) that concluded protections have remained about the same, and
       2 (9 percent) that did not know.

RECOMMENDATION

Our inquiry does not question the PRO Program’s focus on improving the mainstream of
care; nor does it reflect a desire to return to an emphasis on random medical record
reviews. We recognize that the random reviews were labor-intensive, generated much
discord with the medical community, and identified few quality-of-care problems relative
to the numbers of records reviewed. We also understand that the premise of the PRO
Program’s current direction holds promise for improving the overall practice of medicine.
This is of great importance to Medicare beneficiaries and others.

Yet, we find sufficient basis to question the responsiveness of the PRO Program to its
other traditional function: identifying and responding to physicians and hospitals that fail
to meet minimally acceptable standards of care. We direct our recommendation to this
vulnerability.

We recommend that HCFA reconsider the PROS’ function to identi! and respond
effectively to poorly pe~orming physicians and hospitals.


                                              ii
There needs to be a public discussion on what existing or potential processes could deal
effectively with poor performers. To further that public discussion, we offer two options
for HCFA to consider based on the premise that the PROS’ emphasis on improving care
overall will remain dominant:

                                       OPTION 1

�      The HCFA should proceed toward directing the PROS to focus exclusively on
improving the mainstream of care. To help deal with poor performers, it should
consider ways in which the Federal government might support other bodies, such as
State medical boards and ombudsmen, that are more focused on addressing individual
cases of poor medical care.

       Pros.o Could clarify the PROS’ mission and thereby contribute to improved
       performance. Could make PROS’ mission consistent with their funded and
       operational priorities. Could contribute to more effective performance by other
       bodies focussing on poor performers.

       Cons: Could undermine improvement efforts by removing what some regard as a
       complementary function of the PROS, Could weaken the PROS’ authority with the
       medical community. Could endanger beneficiaries if others fail to deal effectively
       with poor performers.

                                       OPTION 2

�      The HCFA should devote further inquiry to determine: (1) if the two functions
of improving the mainstream of care and identifying and dealing effectively with poor
performers can reasonably be perfo~ed by one organization, and (2) how PROS can
carry out both simultaneously. Toward this end, it could suppoti research efforts,
demonstration projects by individual PROS, and conferences.

       Pros: Could lead to a better understanding of the two fimctions’ compatibility.
       Could identify benchmark practices among the PROS. Could lead to innovation in
       how PROS achieve both functions.

       Cons: Could delay inevitable decisions about the direction and role of the PRO
       Program. Could call for additional resources or siphon resources away from
       improvement projects. Could restrict PROS from effectively performing either
       function.

COMMENTS ON THE DRAFT REPORT

We solicited and received comments on the draft report from the Health Care Financing
Administration (HCFA), the American Medical Peer Review Association (AMPRA), the
American Medical Association (AMA), the American Association of Retired Persons
(AARP), the Public Citizen Health Research Group (hereafter referred to as Public

                                            ,..
                                            111
Citizen), and the Coalition for Consumer Protection and Quality in Health Care Reform
(hereafter referred to as the Coalition). We include the complete text of the detailed
comments in appendix E. Below we summarize the major comments of the respondents
and then, in italics, offer our responses. In the report, we made minor edits in response
to comments.

The HCFA concurred with our recommendation, found merit in both options, and asked
us to call for a public discussion on the issues. It also expressed concerns about our
discussion of the PROS’ limited efforts in identifying patterns of poor care and our
presentation of the survey data on weakened protections. The AMPRA supported option
2, believing it is premature to focus PRO activity exclusively on improving the
mainstream. The AMPRA believes the two functions are compatible and that the quality
improvement approach holds promise for dealing with poor performers, giving several
examples of successful projects. The AMA indicated that it had no firm position on either
option and noted that the primary focus of the PRO program should be improving the
mainstream of care. The AARP disagreed with option 1 because of its strong belief that
PROS retain their responsibility to identify and respond to poor performers. Public
Citizen also disagreed with option 1, noting that while continuous quality improvement is
a welcome addition to beneficiary protections, it cannot replace detecting poor performers.
Public Citizen supported further study as outlined under option 2, The Coalition, while
reserving final judgment on the options, indicated it has concerns about the PROS’ ability
to provide adequate beneficiary protections given the dominance of their function to
improve the overall practice of medicine.

 We appreciate HCFA’s suppoti for our recommendation and have added language calling
for a public discussion. With respect to HCFA’s concern about our discussion of limited
 e~orts, we have edited our text to re~ect that PROS have the authority to collect and
 analyze data. With respect to its concern about our presentation of the survey data on
 weakened protections, we have attempted to provide appropriate context for inte~reting
 the survey data. We agree with AMPRA that continuous quali~ improvement holds
promise for the overall practice of medicine. Our concern, however, is that with the
 PROS’ focus on such systems-oriented approaches Medicare beneficiaries remain
 vulnerable to harm from individual poor performers. We appreciate all the comments on
 our drafi report and urge continued discussion on the roles PROS can play in protecting
 Medicare bene$ciaries from poorly pe~orming physicians and hospitals.




                                             iv
                                                                                                         PAGE
EXECUTIVE SUMMARY


INTRODUCTION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


FINDINGS


     �   Questionable Protections from Poor Care . . . . . . . . . . . . . . . . . . . . .+..               . . 3


     � Reservations AboutProtectiom           .t.,oc<.o......-.                  ., .oe.     oo, ..,e..7


RECOMMENDATION                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8


COMMENTS ON THE DRAFT REPORT                               . . . . . . . . . . . . . . . . . . . . . . ...10


APPENDICES


A: Methodology           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-1


B: PROs’Sources           for Identifying Quali~-of-Care Problems . . . . . . . . . . . . . . . .B-l


c:       Interventions Included in Improvement Plans . . . . . . . , . . . . . . . , . . . . . . .C-l


D: Overview of Sanction Data from the Office of Inspector General . . . . . . . . . . D-1


E: Complete Comments ontheDraft                Report . . . . . . . . . . . . . . . . . . . . . . . ..E-1


F: Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..F-l

                               INTRODUCTION


    PURPOSE

    To assess the ability of the Medicare Peer Review Organizations to identify and respond
    to poorly performing physicians and hospitals at a time when their primary mission is to
    improve the overall quality of medical care.

    BACKGROUND

    In April 1993, the Medicare Peer Review Organizations (PROS) began implementing their
    fourth contracts with the Health Care Financing Administration (HCFA). These contracts
    marked major changes in the PROS’ aims and operations. The PROS now aim to improve
    the overall practice of medicine. They do this by working collegially with the medical
    community in analyzing patterns of care and outcomes and by sharing their insights with
    that community. Their focus is now on the performance of systems of care rather than on
    individual caregivers.

    The HCFA refers to this initiative as the Health Care Quality Improvement Program
    (HCQIP). The HCQIP rests heavily on the precepts of continuous quality improvement,
    which hold that it is far more important to improve the overall performance levels even
    slightly than it is to identify and address poor performers at the margin. This emphasis
    reflects the kind of redirection called for by the Institute of Medicine in its comprehensive
    assessment of Medicare quality assurance efforts. 1

    Prior to the fourth contracts, the PROS sought to ensure the necessity, quality, and
    appropriateness of care rendered to Medicare beneficiaries by identifying and addressing
    individual clinical problems. They did this by reviewing individual instances of
    questionable care that they had identified through random medical record reviews or
    beneficiary complaints. At times, the PROS’ reviews represented as much as 15 percent
    of Medicare hospital discharges. Once they confirmed a quality-of-care problem, they
    addressed it by taking follow-up actions they deemed appropriate. At the extreme, such
    actions could involve recommending a sanction to the Office of Inspector General (OIG).

    Thus, with the start of the fourth contract, the PROS began to perform two basic
    functions. The dominant function, however, is the function aimed at improving the
    overall practice of medicine. During the past 2 years, the HCFA has increasingly stressed
    it. At the same time, HCFA continues to rely on the PROS to safeguard Medicare
    beneficiaries by identifying and dealing effectively with individual poor performers. This
    function has always faced major constraints, many of which have been highlighted in prior
    reports by the Office of Inspector General .2 In fact, in our prior report, The Beneficiary
    Complaint Process of Medicare Peer Review Organizations, we assess the beneficiary
    complaint process--a- key safety valve for beneficiaries. In that report, we found that
    while the complaint process represented an important source of information on poor



                                                  1



—          —
performers, it has some flaws that undermine its effectiveness. We offered
recommendations to HCFA for improving the process as a near-term solution.

In this report, we use the term poor performers to refer to physicians whose medical
knowledge and/or practice skills are below minimally acceptable standards (as determined
by the medical community) and who, therefore, pose a continuing threat to the safety of
their patients. With respect to hospitals, we refer to those institutions having insufficient
internal systems to ensure that patients are receiving minimally acceptable standards of
care.

In this report, we look more broadly at the effectiveness of the PROS in addressing
individual poor performers at a time when their focus stresses dealing with system
improvements. We conclude with a recommendation that supports long-term strategies for
dealing with poorly performing physicians and hospitals that fail to meet minimally
acceptable standards of care.

METHODOLOGY

We relied on 4 sources of information: (1) surveys of 22 PROS representing 72 percent

of the beneficiary population in the country, (2) aggregate data from HCFA reflecting all

PROS’ medical record reviews completed under the fourth contract and through

June 30, 1994, (3) telephone calls with officials from 10 State medical boards, and

(4) cumulative information gathered through our previous inquiries on the PROS. (See

appendix A for a more detailed discussion of our methodology.)


Unless noted, the data presented are based on the PROS’ experiences under their fourth

contract with HCFA.


Hereafter, we use the term quality-of-care problem to refer to a problem identified by a

PRO through any source for which (1) the PRO gave the physician or hospital responsible

an opportunity to discuss and/or give additional information about the care in question and

(2) the PRO’s physician reviewer(s) reviewed the record and confirmed that a problem

had occurred.


We conducted our review in accordance with the Quality Standards for Inspections issued

by the President’s Council on Integrity and Efficiency.





                                              2

                                       FINDINGS


     As the PRO Program becomes increasingly committed to improving the overall practice
     of medicine, its ability to find and take action on poorly performing physicians and
     hospitals is questionable.

     �      Limited Leads. The PROS find themselves with very limited leads to identify
            poorly performing physicians or hospitals. With the phasing out of the random
            sample medical record review, which has been the primary source for identifying
            poor performers, PROS still have other sources for identifying poor performers.
            These include beneficiary complaints, referrals from the medical community, and
            newer approaches developed under HCQIP. However, the beneficiary complaint
            process, as we indicated in a recent report, has significant flaws; the referrals from
            the medical community remain minimal; and the new approaches have identified
            few leads.

     The 53 PROS identified 6,010 cases with quality-of-care problems for reviews completed
     between April 1993 and June 1994.3 The majority of these (71 percent) came from the
     5 percent inpatient random sample medical record review. Yet the random sample has
     been, at best, an inefficient source for identifying leads, as less than 1 percent of all
     random sample reviews led to quality-of-care problems.4 By October 1995, that random
     sample will be completely phased out .5 In our recent survey of 22 PROS, 17 (77 percent)
     judged this reduction in record review as a major barrier to identifying individual quality-
     of-care problems.

     The PROS will continue to review those records mandated by law, such as those for
     quality-related beneficiary complaints. b Of the 6,010 quality-of-care problems identified
     by PROS, 9 percent came from the mandatory reviews overall and 2 percent from
     beneficiary complaints (see appendix B). In our prior report, we found that complaints
     can, in fact, be an important source for identifying quality-of-care problems. But our
     inspection also revealed that many beneficiaries were unaware of the opportunities to
     complain to PROS about the quality of their medical care and that PROS received too few
     complaints to identify meaningful patterns of poor care.7

     Further, the PROS have received few referrals from the medical community. In our
     survey of 22 PROS, 6 reported they had received referrals from their State medical
     boards; none of these referrals led to quality-of-care problems.g Eight PROS reported
     they had received referrals from hospitals and 13 from physicians; these referrals led to
     quality-of-care problems in 5 PROS.9 For those 5 PROS, though, the referrals accounted
     for less than 2 percent of all the PROS’ quality-of-care problems. At the time of our
     survey, none of the 22 PROS had written policies encouraging referrals from physicians,
     hospitals, or medical boards.

     Finally, the PROS have identified few leads through their activities begun under the Health
     Care Quality Improvement Program (HCQIP), including the cooperative projects aimed at


                                                   3


-.
improving overall care. Four of the 22 PROS in our sample identified quality-of-care
problems through such projects and their related data collection, even though these
projects were not designed to identify poor performers. For those 4 PROS, though, the
problems identified through cooperative projects accounted for less than 2 percent of all
the PROS’ quality-of-care problems. The other 18 PROS identified no leads through such
projects.

�	     Limited Analysis. Once the PROS become aware of an instance of questionable
       care, they are unlikely under their current contracts to determine if it is an isolated
       event or part of a pattern of such care. The PROS have little medical data to draw
       upon to assess an individual physician’s or hospital’s prior performance. The
       PROS do have the authority to collect and analyze such data. However, with
       HCFA’s emphasis on cooperative projects that aim to improve the mainstream of
       care, PROS are unlikely to devote resources to tracking a questionable provider’s
       fbture performance.

It is one thing to obtain a possible lead on a possible poor performer. It is quite another
to conduct the analysis to determine if (1) a pattern exists that exposes Medicare
beneficiaries to undue danger and (2) some kind of follow-up action should be taken.
Making such a determination is a resource-intensive and often adversarial process that
runs counter to the tenets of continuous quality improvement. It is an allowable activity
for expenditure of PRO program finds, but is clearly not a priority under HCFA’S current
contracts with the PROS.

Through our survey, the PROS cited limitations in conducting the analysis necessary to
distinguish patterns of poor performance from isolated incidents of poor care. In fact,
officials from 16 of the 22 PROS we surveyed judged difficulties in establishing patterns
of poor care as a major barrier to establishing improvement plans with individual
physicians or hospitals. They must rely primarily on their historical data bases that
include past PRO reviews. But with the reduced medical record review, these data bases
are losing relevance. 10 And PROS reported that they rarely initiated projects under the
HCQIP to determine whether problems were isolated or part of patterns. None of the
22 PROS reported routinely conducting special data collection to determine if the problems
were isolated.

k	     Limited Follow-Up. Currently, once PROS confirm (through medical record
       review) that physicians or hospitals are responsible for quality-of-care problems,
       they rarely do anything more than inform those responsible of the nature of the
       problem. During their current contracts with HCFA, 10 of the 22 PROS in our
       sample had not initiated any improvement plans that compel individual physicians
       or hospitals to address the quality-of-care problems. The other 12 initiated
       improvement plans in response to 146 quality-of-care problems. One PRO
       identified half of those problems.

The 22 PROS in our sample responded to all the quality-of-care problems they confirmed.
For 99 percent of those problems, the PROS responded with a letter confirming, after


                                              4
medical record review, that a quality-of-care problem occurred. 11 In only 1 percent of
the problems did the PROS respond with more than a letter. These involved 146 problems
and 12 of the 22 PROS in our sample. The PROS responded to these problems with
improvement plans designed to prevent the recurrence of the problem. 12 These plans
compelled those involved to take some action, such as attend a course (for a physician) or
conduct inservice training (for a hospital).

The number of quality-of-care problems the 12 PROS responded to with improvement
plans ranged from 1 to 73, with a median of 6.5. Six PROS responded to 5 or fewer
problems with improvement plans, 2 PROS responded to between 6 and 10 problems with
plans, and 3 PROS responded to between 11 and 15 problems with plans. One PRO
responded to 73 problems with improvement plans, accounting for half of the responses in
our sample.

Of the 146 problems the 12 PROS responded to with improvement plans, 77 involved
plans directed to physicians and 69 to hospitals. Based on our review of 53 of these
improvement plans, we found that most of those directed to hospitals involved a systemic
intervention such as a review of or change in the hospital’s policies. Most of those
directed to physicians included an educational component such as continuing medical
education or inservice training (see appendix C).

The extent to which physicians are subject to any corrective or disciplinary actions by
hospital quality assurance bodies is unclear. However, given that such actions run counter
to the collegial and self-improvement precepts of continuous quality improvement, it is
likely to be minimal. In fact, another Office of Inspector General inspection raises
important questions about the extent to which hospitals themselves have taken adverse
actions directed to physicians. 13 In that inspection, we found that 75 percent of the
hospitals in the United States reported no adverse actions to the National Practitioner Data
Bank from September 1, 1990 to December 31, 1993.14

F	     Moribund Sanction Recommendations. The sanction referral authority has
       continued in the moribund state we reported on in 1993. The PROS’ sanction
       recommendations to the Office of Inspector General have dwindled from a high of
       72 in FY 1987 to 12, 14, 13 and 13 in FYs 1991 through 1994. By contrast, State
       medical boards have become much more active in disciplining poorly performing
       physicians. From CY 1991 to CY 1994, annual board actions increased from
       2,804 to 3,571.

From FY 1986 through 1994, the OIG sanctions have shown a similar decline: from a
high of 50 in FY 1987 to a low of 6 in FY 1992, 10 in FY 1993, and 7 in FY 1994. In
this period, 159 physicians have been sanctioned compared to 3 hospitals (see appendix
D).

As we reported in 1993, the drop in PRO sanction recommendations can be explained by
three factors: (1) the statutory requirement that prevents sanction unless providers have
demonstrated an “unwillingness or lack of ability” to comply with their Medicare


                                             5
obligations; (2) the PROS’ cumulative experience with the costly, complex, and
contentious referral process; and (3) their increasing emphasis on educational rather than
punitive responses to poor care. Is The OIG’S high rate of rejections also helps explain
the decline. From FY 1986 through FY 1994, the OIG rejected 41 percent of the PROS’
sanction recommendations based on either willingness and ability, failure to follow the
regulatory requirements, or lack of medical evidence (see appendix D),

Like PROS, State medical boards have a responsibility for ensuring quality of medical
care. But, unlike PROS, State boards deal with care provided by licensees to all their
patients, not just those covered by Medicare. The HCFA requires that, as a condition of
participating in Medicare, physicians be licensed by their States. And as PRO sanction
recommendations have dropped, medical board actions to discipline physicians have
increased. Unlike OIG sanctions, which bar participation in Medicare and Medicaid but
do not affect licensure, medical board actions can affect a physician’s license to practice.
For example, in CY 1994, State boards took 3,571 actions of which 1,498 (42 percent)
involved the loss of license, including revocation, suspension, surrender, or mandatory
retirement. Another 1,256 of those actions (35 percent) involved some restriction to the
license, such as probation or limitation. The remaining actions involved modifications to
the licenses that resulted in some penalty or reprimand to the physicians. 16

�	     Minimal Referrals to State Medical Boards. In 1993, Congress passed
       legislation requiring PROS to share information with medical boards on physicians
       found to be responsible for serious quality-of-care problems. The legislation
       appears to have had little, if any, impact on the level of such sharing.

In April 1993, we reported that the PROS’ sharing of case information, even for the most
serious cases, was minimal .17 The Citizen Advocacy Center also reported on the
minimal level of sharing based on its 2 surveys in 1992, one that reviewed the experiences
of 10 States where PROS and medical boards both had shown an interest in sharing and a
second, more extensive survey of all 50 States. 18 Between its two surveys, the Center
found that in only Ohio, Mississippi, New York, and to a lesser extent Texas, was much
information being sent to the medical boards.

To assess the current level of sharing, we called the medical boards in the 10 States
identified by the Center with boards and PROS committed to sharing information. 19 We
found that sharing remains minimal. No board official reported an increase in the level of
sharing. Officials from 3 of those 10 States--including Ohio and Mississippi--reported that
the level of sharing was less than what they had reported to the Center in 1992. Five
reported the level of sharing was about the same. Two were unable to answer due to a
lack of data.




                                              6

The PROS themselves find much that is positive about the current direction of the
Program. But some express reserv@”ons about its impact on protecting Medicare
beneficiaries from poor pe~ormers.

�	     Compatible Functions. Seventeen of the 22 PROS (77 percent) in our sample
       indicated that the two basic PRO functions--improving the mainstream of care and
       dealing with poor performers--are compatible.

F	     Weakened Protections; Yet, when questioned further, 11 of 22 PROS
       (50 percent) concluded that beneficiary protections have become weaker. This
       compares to 5 (23 percent) that concluded protections have become stronger,
       4 (18 percent) that concluded protections have remained about the same, and
       2 (9 percent) that did not know.

Several PRO officials explained the functions’ compatibility by noting that improving care
overall also improves the poor performers. They pointed out that problems they identify
with poor performers become opportunities for cooperative projects aimed at overall
improvement. Indeed, according to some officials with whom we spoke, it is the PROS’
clout as the entities that deal with poor performers that can convince reluctant hospitals to
participate in improvement projects. Others noted that compatibility means not pursuing
minor problems while reserving resources for those outlier physicians and hospitals that
pose significant threat to do great harm. In fact, some said that hospital officials welcome
the PROS and rely on them for help in identifying and dealing with poor performers.

Yet, while the PROS reflect strong support for the compatibility of the two fi.mctions, they
also point to weakened protections for the beneficiary. Twice as many PRO officials
concluded protections have weakened since the third contract than concluded they have
strengthened. Many in the PRO community with whom we spoke tied the weakened
protections directly to their lessened ability to conduct medical record reviews. They
reported that without funding and authority for some minimal level of record review,
instances and patterns of poor care have gone undetected and therefore unaddressed. And
although its value was never definitively documented, some PROS questioned if the
sentinel effect--whereby the mere knowledge of ongoing medical record reviews creates an
incentive to improve care with the medical community--will exist as record review
declines.




                                              7

                          RECOMMENDATION


    Our inquiry does not question the PRO Program’s focus on improving the mainstream of

    care; nor does it reflect a desire to return to an emphasis on random medical record

    reviews. We recognize that the random reviews were labor-intensive, generated much

    discord with the medical community, and identified few quality-of-care problems relative

    to the numbers of records reviewed. We also understand that the premise of the PRO

    Program’s current direction holds promise for improving the overall practice of

    medicine .20 This is of great importance to Medicare beneficiaries and others.


    Yet, we find sufficient basis to question the responsiveness of the PRO Program to its

    other traditional function: identifying and responding to physicians and hospitals that fail

    to meet minimally acceptable standards of care. We direct our recommendation to this

    vulnerability.


    We recommend that HCFA reconsider the PROS’ function to identi$y and respond
    effectively to poorly pe~orming physicians and hospitals.

    There needs to be a public discussion on what existing or potential processes could deal
    effectively with poor performers. To further that public discussion, we offer two options
    for HCFA to consider based on the premise that the PROS’ emphasis on improving care
    overall will remain dominant:

                                             OPTION 1

    b      The HCFA should proceed toward directing the PROS to focus exclusively on
    improving the mainstream of care. To help deal with poor performers, it should
    consider ways in which the Federal government might support other bodies, such as
    State medical boards and ombudsmen, that are more focused on addressing individual
    cases of poor medical care.

           Pros: Could clarify the PROS’ mission and thereby contribute to improved
           performance. Could make PROS’ mission consistent with their funded and
           operational priorities. Could contribute to more effective performance by other
           bodies focussing on poor performers.

           Cons: Could undermine improvement efforts by removing what some regard as a
           complementary fimction of the PROS. Could weaken the PROS’ authority with the
           medical community. Could endanger beneficiaries if others fail to deal effectively
           with poor performers.

                                             OPTION 2

    F      The HCFA should devote further inquiry to determine: (1) # the two functions
    of improving the mainstream of care and identifying and dealing effectively with poor


                                                  8


—
performers can reasonably be pe~ormed by one organization, and (2) how PROS can
carry out both simultaneously. Toward this end, it could suppoti research efforts,
demonstration projects by individual PROS, and conferences.

       Pros: Could lead to a better understanding of the two functions’ compatibility.
       Could identify benchmark practices among the PROS. Could lead to innovation in
       how PROS achieve both functions.

       Cons: Could delay inevitable decisions about the direction and role of the PRO
       Program. Could call for additional resources or siphon resources away from
       improvement projects. Could restrict PROS from effectively performing either
       functions.




                                           9


        ——-
           COMMENTS                      ON       THE         DRAFT              REPORT


          We solicited and received comments on the draft report from the Health Care Financing
          Administration (HCFA), the American Medical Peer Review Association (AMPRA), the
          American Medical Association (AMA), the American Association of Retired Persons
          (AARP), the Public Citizen Health Research Group (hereafter referred to as Public
          Citizen), and the Coalition for Consumer Protection and Quality in Health Care Reform
          (hereafter referred to as the Coalition). We include the complete text of the detailed
          comments in appendix E. Below we summarize the major comments of the respondents
          and then, in italics, offer our responses. In the report, we made minor edits in response
          to comments.

          The HCFA concurred with our recommendation to reconsider the PROS’ function to
          identify and respond to poor performers. It found merit in both options and asked that we
          call for a public discussion on these issues. It expressed concerns about our discussion of
          the PROS’ limited efforts in identifying patterns of poor care, pointing out that PROS have
          the authority and opportunity to perform primary data collection if they find an instance of
          questionable care. The HCFA also expressed concerns that our presentation of the survey
          data on weakened protections would lead other readers to conclude we advocate a return
          to case review, although it understood that we did not.

          We appreciate HCFA’s suppoti for our recommendation. Based on HCFA’s suggestion,
          we added language calling for a public discussion in introducing the two options. With
          respect to HCFA’s concerns about our discussion of the PROS’ limited e~orts concerning
          problem analysis, we point out that our text specifies such analysis is an eligible program
          expense. We have edited that text to muke clear that PROS in fact have the authori~ to
          conduct such analysis. With respect to HCFA’s concerns about our presentation of the
          survey data on weakened protections, we have attempted to provide the appropriate
          context so that it is clear to readers that we do not advocate a return to case review.

          The AMPRA supported option 2, believing it is premature to focus PRO activity
          exclusively on improving the mainstream. The AMPRA believes the two functions are
          compatible and that the quality improvement approach holds promise for dealing with poor
          performers, giving several examples of successful improvement projects. The AMPRA
          also called for strengthened PRO interactions with medical boards, ombudsmen, licensing
          agencies, and accrediting bodies.

          We agree with AMPRA that continuous quality improvement holds promise for the overall
          practice of medicine, as in the systems-oriented examples AMPRA cites. Our concern,
          however, is that with the PROS’ focus on such systems-oriented approaches, Medicare
          beneficiaries remain vulnerable to harm from those individuals whose medical knowledge
          andlor practice skills are below minimally acceptable standards.

          The AMA indicated that it had no firm position on either option and noted that the
          primary focus of the PRO program should be improving the mainstream of care. The


                                                       10


——.   .. —.. —.—.. ——____
AARP disagreed with option 1 because of its strong belief that PROS retain their
responsibility to identify and respond to poor performers. Public Citizen also disagreed
with option 1, noting that while continuous quality improvement is a welcome addition to
beneficiary protections, it cannot replace detecting poor performers. Public Citizen also
noted that while it supports further study as outlined under option 2, recommendations
made in previous OIG studies should be vigorously implemented. The Coalition, while
reserving final judgment on the options, indicated it has concerns about the PROS’ ability
to provide adequate beneficiary protections given the dominance of their fimction to
improve the overall practice of medicine.

We appreciate these comments on our draft report and urge continued discussion on roles
PROS can play in protecting Medicare beneficiaries from poorly pe~orming physicians
and hospitals.




                                            11

                              APPENDIX                    A


                                      METHODOLOGY

Mail and Telephone Surveys of 22 PROS

We conducted mail and telephone surveys with 22 PROS in January 1995. We chose
these PROS through a stratified sample in which we arrayed PROS according to the
number of Medicare beneficiaries in each State (high and low beneficiary population).
We chose all 17 of the PROS for States in the high-population stratuml and a random
sample of 5 PROS for States in the low-population stratum.z The PROS in our sample
represent 72 percent of the Medicare beneficiary population in the country. The response
rate for both the telephone interviews and the mail survey was 100 percent.

We sent out a mail survey to all 22 PROS in which we asked PROS for specific data under
the fourth contract. The data included sources for confirmed quality-of-care problems and
how many such problems led to improvement plans, among others.

We supplemented the mail survey with more in-depth telephone interviews. For the
interviews, we designed and pretested a discussion guide with questions about identifying
quality-of-care problems, the complaint process, barriers to identifying individual quality-
of-care problems, responding to confirmed quality-of-care problems, and barriers to
responding to confirmed quality-of-care problems, among others.

Aggregate Data from HCFA

We also drew on data from HCFA’S PROD3 data base (which includes the results of all
inpatient record reviews) and PROD5 data base (which includes the results of all physician
reviews). Through these we obtained data on the number and sources of confirmed
physician and hospital quality-of-care problems for all PROS for reviews completed under
the fourth contract through June 30, 1994.3 Our tests of the data revealed that 10 PROS
reported no beneficiary complaints when, in fact, they had received such complaints.



    I These included the following States (listed in descending order of beneficiary
population): California, New York, Florida, Pennsylvania, Texas, Ohio, Illinois,
Michigan, New Jersey, North Carolina, Massachusetts, Missouri, Indiana, Georgia,
Virginia, Wisconsin, and Tennessee.

    2 These included the following States (listed in descending order of beneficiary
population): New Mexico, Utah, Montana, South Dakota, and Delaware.

     3 In analyzing our data on confirmed quality-of-care problems, we report the most
conservative interpretations. We chose this approach to avoid double counting complaints
that resulted in confirmed problems with both a physician and a hospital.


                                           A-1
Nevertheless, when these data are viewed in the context of our telephone interviews and
survey data, we believe the findings and recommendation in this report are valid.

Follow-up with 10 State Medical Boards

In April 1995, we called the 10 State medical boards identified by the Citizen Advocacy
Center as sharing a commitment for increased sharing with the PROS in their States.4
We reviewed their previous level of sharing (as reported to the Center) and then asked
them to assess their current level of sharing as more, less, or about the same.

Previous Office of Inspector General Inquiries on PROS

We have an extensive history of reviewing the PRO Program, starting in 1988. The
major studies we drew on in this report include: Peer Review Organizations and State
Medical Boards: A Vital Link, OEI-C)I-92-00530, April 1993; The Sanction Referral
Authority of Peer Review Organizations, OEI-01-92-00250, April 1993; and, The
Beneficiary Complaint Process of the Medicare Peer Review Organizations, Draft Report,
OEI-01-93-00250, June 1995.5




    4 The Center identified Alabama, California, Colorado, Iowa, Minnesota, Mississippi,
Ohio, Rhode Island, West Virginia, and Wisconsin as States with medical boards and
PROS both committed to sharing information. (Citizen Advocacy Center, information
Exchange Between Peer Review Organizations and Medical Licensing Boards: Update
and Report on CAC Survey, March 1992, and Information &change Between Peer Review
Organizations and Medical Licensing Boards: Report on the 50 State Survey, November
1992.)

     5 Other OIG reports include: The Utilization and Quality Control Peer Review
Organization Program: Quality Review Activities, OAI-01-00570, September 1988; The
Utilization and Quality Control Peer Review Organization Program: Sanction Activities,
OAI-01-00571, November 1988; The Utilization and Quality Control Peer Review
Organization Program: An Exploration of Program Electiveness, OAI-01-88-00572,
February 1989; and, Educating Physicians Responsible for Poor Medical Care: A Review
of the Peer Review Organizations’ EJorts, OEI-01-89-00020, February 1992.

The Office of Inspector General has also issued a number of reports on DRG validation.


                                          A-2
                                                 APPENDIX                     B

      PROS’ SOURCESFORIDENTIFYING
                                CONFIRMED
                                        QUALITY-•F-CAmPROBLEMS
    UNDERTHEFOURTHCONTRACT                    THROUGHJUNE30, 1994
                            FORREVIEWSCOMPLETED


                      TYPE OF      REVIEw                      Total Quality                 AS a percentage

                                                            Problems Identified          Of All Quality Problems

     RANDOMSAMPLE”
                                                                   4261                           70.9%
            REVIEWSh
    MANDATORY
                                                                      519                         8.6%
          MedicareCodeEditOr                                           15                         <1%
          HospitalAdjustment
                                          37                         <1%
          Assistant at Cataract Surgery

                                                                       o                           0%
          Fiscal Intermediary   (FI) referral

                                                                      88                          <1%
      Regional Office (RO) referral

                                                                       4                          <1%
      Hospital Issued Notice of Noncoverage
                                                                   274                           4.6%
      Beneficiary ComPIaint
                                                                   101                           1.7%
   MlSCELL~Ous                  REVIEWISC
                                                                  1438                          23.9%
      Other
                                                                  329                            <1%
      Intervening Care
                                                                   29                            <1%
      Focussed Review Selection

                                                                   11                            <1%
     PRO-selected      Intensified review

                                                                   5                             <1%
     FI/Carrier     Pre-payment Reject

                                                                   3                             <1%
     Ventilator-Dependent       Unit

                                                                   1                            <1%
     FI Prepayment Reject

                                                                   3                            <1%
     Readmission

                                                                 527                            8.8%
     Specialty Hospita]

                                                                 355                            5.9%
     UCDS
                                                       ..=
                                                                 168                            2.8%
     Hospital Adjustment Previously selected

                                                                  7                             <1%
  TOTALS
                                                                6218d                         103.5%
Notes:	      N =53 PROS. The number of beneficiary complaints represented here should be considered conservative
            because of reporting flaws. Ten PROS reported no beneficiary complaink when in fact they received
            such complaints under the fourth contract.
                                                         “ Will be eliminated as of October 1995. ~ Will continue as
            the main source of record reviews.
                                                c Of the types of reviews listed here, only the “other” category and
            the hospital adjustment previously selected are likely to be continued. J Of these quality-of-care
            problems, 208 were selected for more than 1 reason. The PROS identified 6010 confirmed qualiV-of­
            care problems through June 31, 1994.
Source: HCFAPROD3andPROD5databases. Analysis:HHSOfficeof inspectorGeneral.



                                                        B-1

                                                 APPENDIX                                      C


                               INTERVENTIONS
                                           INCLUDEDIN IMPROVEMEm PLANS


                                                                             Directed to              Directed to                    Total
                          Intervention                                       Physicians                Hospitals                    (n=53)
                                                                              (n=25)                    (n=28)
   Protocol/Policy Change
                                                                               5 (20%)                   22 (79%)                 27 (53%)
   Inservice Training
                                                                               5 (20%)                   17 (61%)                 22 (42%)
  Continuing Medical Education (CME)
                                                                               8 (32%)                           .-                8 (15%)
  Case Presentation
                                                                              4 (16%)                    8 (29%)                  12 (23%)
  Hospital Case Monitoring
                                                                              4 (16%)                   12 (43%)                  16 (30%)
  PRO Case Monitoring
                                                                               2 (8%)                     1 (4%)                   3 (6%)
  Meeting with the Hospital
                                                                              5 (20%)                   8 (29%)                  13 (25%)
 Meeting with the PRO
                                                                              6 (24%)                   3 (11%)                   9 (17%)
 Referral to Hospital

 Quality Assurance Committee

                                                                             7 (28%)                   10 (36%)                  17 (32%)
 Required Consultation

                                                                             3 (12%)                         --                   3 (6%)
 $PEX Exam

                                                                              1 (4%)                         --                   1 (2%)
 consideration of Sanction

                                                                             9 (36%)                   4 (14%)                  13 (25%)
 I_’elephoneCall

                                                                             2 (8%)                     1 (4%)                    3 (6%)
 )ther

                                                                            3 (12%)                         -.                   3 (6%)
  ote:     Our analysis was based on those written materials (mostly letters) sent to us by the PROS. Thus, any telephone calls, meetings, or
           other irrtmwtdons IIOt documented in tfrese written materials are excluded from this table. These represent 53 of tile 146
           improvement plans that PROS in our sample initiated under the fourtfr ecmtract.

 nsrce:    HHS Office of Inspector General Survey of 22 PROS, January 1995.

.4rsal@.s: HHS Office of Inspector General.




                                                                  c-1
                      TYPOLOGYOF INI’ERVENTIONS
                                             USEDIN IMPROVEMENT
                                                              PLANS


II               Typology                          I    Interventions directed to                      I    Interventions directed to                  II
1!                                                         Physicians (n=25)                                    Hospitals (n=28)
                                                                                                                                                       I
  Educational                                                        15 (60%)                                          17 (60%)
  Systemic                                                            5 (20%)                                          22 (79%)
  Punitive                                                            9 (36%)                                           4 (14%)
  Note Thser~r@ent         460ftie 146improvement plmtiat        PROsinour smpleinitiati       under tie foufimntract.    Ouramdysis was basedon
  those wrhtcnrnatcrials(m ostiyle tters)se nttousbyrhePROs.       Thus, arryklephoneealls,    meetings, orother interviews mrtdocumented inrfrese
  written msterials are excludedfromthk table.

  The number of interventions we identified in any one improvement plan ranged from one to seven. Depending on the interventions wittdn any one
  improvement plan, it could be characterized as educational, systemic, punitive, or a combination of these. Five of the plans dbccted to physicians
  and two direettsf to hospitals contained no interventions we considered educational, systemic, or punitive.


  We considered the following interventions aa educational: ioserviw training, continuing education, and case presentations. We considered
  interventions as systemic if they involved protocol and policy changes, including the use of new forms and posting of rules. We considered
  interventions as punitive if they involved consideration of sanction, We excluded interventions such aa meetings and monitoring because we were
  unable to determine whether they were edrscatiomd or punitive in nature.

IIsource      HHS Office of Inspector General Survey of 22 PROS, January 1995,
                                                                                                                                                       II
  Analysis: HHS Office of Inspector General.




                                                                        c-2
                                             APPENDIX                                    D


OVERVIEWOF SANCTIONDATAFROMTHEOFFICEOF INSPECTOR
                                               GENERAL(OIG)


         PRO SANCTION
                    RECOMMENDATIONS
                                 TO THEOIG BY TYPEOF PROVIDER


  Type of              FY           FY         FY          FY          FY         FY         FY          FY         FY
 Provider:             86           87         88          89          90         91         92          93         94          TOTAL
Physician               60          66          34         21          29          12         13          12         13             260
 Hospital                6           6           3           1            0          0           1          0         0              17
  Nursing
   Home                  o           0           0          0             0          0           0          1         0               1

    Total               66          72          37         22          29          12         14          13         13             278
Source   HHSOffice of Inspector General, Office of Investigations.



     OIG SANCTIONS
                 BASEDON PRO RECOMMENDATIONS
                                          BY TYPEOF SANCTION


  Type of               FY          FY         FY         FY          FY        FY         FY          FY          FY
  Sanction              86          87         88         89          90        91          92         93           94          TOTAL
 Exclusion               21          34         18         10         13         10          5          7            7              125
 Monetary
  Penalty                 9          16          2         0          0          0           1          0            0              28
  *Pre-
Exclusion                 0          0           2          1          1         2           0          3            0                9
Retirement
     Total               30          50         22         11         14         12          6          10           7              162
Source   HHSOffIce of Inspeetor General, Office of Investigations.

‘Pre-exclus ion retirement results from an agreement among the PRO, the physician, and tbe OIG that the physician retire from practice rather
than be excluded. Because the retirement would not have occurred witbout tbe saoction reeommendation, the OIG counts these as aetioos taken.




                                                                     D-1

            REFERRALSREJECTEDOR CLOSEDBY THEOIG WITHOUTSANCTION
                                                                                 —
 Rejection              FY          FY         FY         FY          FY    FY   FY      FY   FY
 Based on:              86          87         88         89          90    91   92      93   94   TOTAL
                                              —
 Unwilling
 or Unable
  Require-                0          19         11           4        4     2    2       1    0     43
    ment
Failure to
 Follow
Regulatory                4          10         12           6         2    1        0   1    1     37
 Process
   Lack of
  Medical                 6          5           0           2        2     5    7       1    1     29
  Evidence
                                              —          -
Closed Due
to Death or              2           0           0           0        0     0    0       0    3      5
   Other
    Total                12         34          23           12        8    8    9       3    5     114
Source   HHSOffice of Inspector General, Office of Investigations.




                                                                     D-2

                            APPENDIX                 E


                         Conmimrs    oN mm DRAFT IWPORT

Inthis appendix, represent in fill thecoments    from the Health Care Financing
Administration, the American Medical Peer Review Association, the American Medical
Association, theherican   Association of Retired Persons, the Public Citizen Health
Research Group, andthe Coalition for Consumer Protection and Quality in Healti Care
Reform.




                                        E-1

           ..
            ...!{.,

    .. ~
  ,..                 1.


:
 “Jg
---
:.
 -.,
  .’
    ‘+
      ‘-d,
       > ”
                             DEP.4RT31ENTOF    HE.ALTH   & HUNIAN   SERVICES                    Health Care Financing Administratic



                                                                                                Office of the Administrator
                                                                                                Washington, D.C. 20201




                            .


                           DATE:         OCT25 D%

                           TO:           June Gibbs Brown
                                         Inspector General            .
                                                           .&
                           FROM:         Bruce C. Vladecl$
                                         Administrator       w-

                           SUBJECT	      Office of Inspector General Drti Report: “The Medicare Peer Review
                                         Organizations’ (PROS) Role in Identi&ing and Responding to Poor
                                         Performances,” (OEI-O 1-93-00251)

                           We reviewed the subject draft report which examines how well the PROS are finding
                           and taking action on poorly performing physicians and hospitals.

                           Our detailed comments are attached for your consideration.

                           Thank you for the opportunity to review and cornrnent on this report. Please contact
                           us if you would like to discuss our comments Ii.rther.

                           Attachment          ~
               Health Care Financing Administration (HCFA) Comments
                  on Office of Insuector General (OIG) Draft Re~ort:
                “T’he Medicare Peer Review Organizations’ (PROS) Role
                         in	 Identifying and Resuondin~ to Poor
                             Performers,” (OEI-01-93-00251)



OIG Recommendation

HCFA should reconsider the PROS’ fiction to identi& and respond effectively to
poor performing physicians and hospitals. Two options are offered.

                                   OPTION 1

       The HCFA should proceed toward directing the PROS to focus exclusively on
       improving the mainstream of care. To help deal with poor performers, it should
       consider ways in which the Federal Govemxnent might support other bodies,
       such as State medical boards and ombudsmen, that are more focused on
       addressing individual cases of poor medical care.

                                   OPTION 2

       The HCFA should devote further inquiry to determine:

       (1) if the two functions of improving the mainstream of care and identi~ing and

       dealing effectively with poor performers can reasonably be performed by one

       organization. and (2) how PROS can carry out both simultaneously. Toward

       this end, it could support research efforts, demonstration projects by individual

       PROS, and conferences.


HCFA Resuonse

HCFA concurs and believes that both options have merit. We will work with our
resources and the medical community to explore avenues to detelmine what processes
are best to deal with the types of poor performers mentioned in this report.

Technical/General   Comments

1.	    We suggest that the following language be added to introduce the hvo options
       offered in your recommendation: “There needs to be a public discussion on
       what existing or potential process    there could be for dealing with the types
       of poor performers mentioned in this report. Here are hvo options. ”
Page 2


2.
      In regard to your discussion of Limited Analysis on page 4, we wish to point
         out that the PROS have the authority and opportunity to perform primary data
         collection if they find an instance of questionable care. We have asked PROS to
         take a scientific approach in investigating such cases through the analysis of
         clinical and operational records associated with the performance at issue.

3.	   In regard to your discussion on Weakened Protections, we question why the
      emphasis is placed on the 50 percent of PROS that fmd protections weakened
      which apparently argues that the case review approach is better. We do not
      believe it is the OIGS intention to present an argument for case review;
      however, a reader could infer this based on the way survey results are discussed
      in this report.

      We thus suggest that the OIG clari~ their survey results to ensure that the
      reader understands that the OIG is not advocating case review. We recommend
      the following language: “Forty-one percent of the su.meyed PROS felt that
      beneficiary protections are better or equal, 9 percent felt they were neutral, and
      50 percent felt that the protections are weaker. ” .M this point tie OIG could
      explain why the case retiew method was prefemed by some PROS and why they
      felt it offered better beneficiary protection.
 Nil??ii                                AMERICAN MEDICAL PEER REVIEW ASSOCIATION
 1140 Connecticut Avwiw,   NW .   Suite 1050   �   Washington, D.C. 20036   �   202/331-5790   �   FAX: (202) 833-2047




 October 15, 1995


 June Gibbs Brown

 Inspector General

 Department of Health & Human Services

 OffIce of Inspector General

 330 Independence Avenue, S.W.

 Washington, D.C. 20201


Dear Ms. Brown:


On behalf of the American Medical Peer Review Association (AMPRA) -- the national
membership association representing the nation’s network of peer review organizations -- I
appreciate the opportunity to review the draft Inspector General’s report, “The Medicare Peer
Review Organization’s      Role in Identl~ing         and Responding        to Poor Performers. ”

AMPR4 favors option two:

        The HCFA      should   devote further         inquiry to determine:        (1) f the two functions           of
       improving the mainstream of care and identlfiing and dealing e~ectively with poor
       performers can reasonably be performed by one organization, and (2) how PROS can
       carry out both simultaneously.     Toward this end, it could support                        research   eflorts,
       demonstration projects b,v individual PROS, and conference.

It is premature to focus PRO activity exclusively on improving the mainstream of care until
we have further evaluated the Health Care Quality Improvement Program’s (HCQIP) ability
to deal with poor performance. In principle, we believe that the two functions are compatible.

AMPR+ maintains that individual case review is not the only means to identify and to respond
to poor performers. The innovative HCQIP approach of anaiysis and feedback of patterns of
care, through the comparison of provider performance to scientifically based quality measures,
shows promise for evaluating the full range of practice performance includirw those providers
on the tail end of the performance distribution.     While the emphasis is on improving the
mainstream of care. PROS are also responsible for holding providers accountable for
improvement, particularly those providers whose performance show great variance from
accepted quality standards and are unwilling or unable to correct identified quality concerns.
Without PRO sanction and corrective action authority, there is a real question as to whether
all providers will be committed to making quality improvement a priority.
 The Medicare PRO k Role in Identlfiing   and Responding   to Poor Pe~ormers   comments continued
 --
 October 15, 1995

 Page 2


 While  still early in HCQIP’s evolution, there are, nonetheless, many exampies which
successfully identify and deal with poor performance. For example, unnecessary radical
prostate cancer surgery for men over the age of 70 represents poor practice that has been
corrected by PROS through feedback of information to doctors on the rates of surgety for older
men together with the scientific evidence for non-surgical intervention. Recent guidelines by
the American College of Cardiology and the American Heart Association state that routine
right heart catheterization is unnecessary. As a result of PRO performance monitoring,
feedback, and education, right heart catheterization rates have dropped significantly.

Additionally, in Florid% Medicare beneficiaries were denied cataract surgery because of
restrictive criteria employed by Medicare HMOS at variance from accepted Agency for Health
Care Policy and Research (AHCPR) guidelines. PRO intervention led the HMOS to adopt the
AHCPR guidelines, and beneficiaries now enjoy increased access to necessary care. .4MIR4
contends that HCQIP’s more scientific and systems-oriented approach to identifying and
responding to poor performers might prove to be a more effective strategy than the subjective
and highly litigious system of individual case review.

There are other reasons why AMPRA supports option two: 1) PROS are still engaged in
individual case review through review of beneficiary complaints and hospital notices of non-
coverage; 2) the absence of sanction authority would weaken the PROS’ authority with the
medical community (as observed in the report); and, 3) removing the sanction authority from
PROS would endanger beneficiaries if other mechanisms fail to effectively deal with poor
performers.

AMPRA also recommends that PRO interaction and communications with state medical boards,
ombudsmen, licensing agencies, and accrediting bodies be strengthened.       We urge HCFA to
issue regulations that would implement the 1993 statute that requires the sharing of information
between PROS and medical licensing boards.

Just recently AMPR4 and Joint Commission on the Accreditation of Healthcare Organizations
collaborated on a pilot project in the state of Pennsylvania to share PRO and joint Commission
hospital accreditation findings for the purpose of accelerating hospital improvement activities.
Voluntary    efforts at information       sharing such as this should be encouraged.

Again, we thank you for allowing us the opportunity to comment. Please let us                     know   how we
can be of further assistance in resolving these important public policy issues.

S~cerely,




)3xecutive Vice President
  American           lNledical
                          Association
  Physlclansdedicacedto the health of Anerlca



  JamesS.Todd,.M1               515North State Street    312464-5000
  ExecutiveVice President       ChiCagO,Illinois 60610   312464-4184 Fax

  October 13, 1995

 June   Gibbs Brown

 Inspector General

 Department of Health and Human Services

 330 Independence Avenue, S.W. Room 5250

 Washington, D.C. 20201


 Dear Ms. Brown,

 The American Medical Association (AMA) appreciates the opportunity to respond to the

 recommendations contained in [he Office of Inspector General (OIG) report, The Medicare Peer

 Review Organizations’ Role In Identifvirw and ResDondin~ to Poor Performers.


 During the past two years, there has been a positive reaction from the medical community in

 response to the PRO program, specifically the PRO Fourth Scope of Work. The PRO Fourth

 Scope of Work correctly and appropriately attempts to improve the overaII quality of are

 provided to Medicare patients by analyzing patterns of care and outcomes and by sharing

 information with the medical community. In placing a greater emphasis on physician and

 provider education, there has been an increased level of collaboration among PROS, hospitals, and

 physicians on quality improvement efforts.


We are pleased that the new Fifth Scope of Work, which will continue to define the future

direction of the PRO program, builds on the positive changes of the current scope of work by

further enhancing these cooperative activities. The AMA remains very supportive of the

educational, non-punitive direction of the Medicare PRO program. We continue to believe that

the program’s emphasis should be on improving the mainstream of care through pattern anaiysis

rather than a punitive approach that addresses individual clinical errors.


Toward [his end, we have no firm position on the two specific recommended options f~r the PRO

program as discussed in this report. Given your assumption, with which we wholeheartedly

concur. [hat [he PRO program’s primary focus should be on improving the mainstream of care,

we believe [ha[, if [he Health Care Financing Administration ~HCFA) determines that i~entifying

and responding to poor performers should remain a funccion of the PRO program, further study is

appropriate to determine the potential effectiveness of PROS in performing both activities.

Regardless of the actions taken, HCFA must take great care not to undercut the educational

approach of the current PRO program, as well as the improving cooperative relationship? between

the PROS and the medical community.


Again, [hank vou for the opportunity to cornrnem on this report. The AMA is strongij committed

to [he objec[ive of maintaining, and, where needed, improving [he quality of care provided to

!vIedicarepatients and will continue to play an active role in ensuring that physicians” ~:rspectives

are an integral part of the PRO process.


Sincerely,


   ~            d.     %5@            m)a
t ames S. Todd, MD
                           OJ’i*l@fintu    #*”cnu/lad              soJB?’w R&&acwium
                                                             ku&tY&jl
  November 21, 1995




 JuneQibbs Brow-n
 Illspomr

         General

 Dqmtmcmt       of EIedth and Humm S-
 Officoofthc Inapcmr Ocaeral
 330 Indoperidenee Avenue, S.W.
 WmhhgtOS D,C. 20201

 Dear   IilspOctofGenwld Browlx

 TheAmcrieanAssociationofliotimd PcrsoLIs
                                        (AARP)appnxiatca& Wp=nu@’mooxz$=m
 on the ifxpoxtantdraftnqxm “TheMsdbrc pm Rdtmu Ckgmizaticma’RoJeh ~
 andRespondingto Poor I%zf&mers,”

YOUsu~gesedudHCFAreconsider PROS’lkuedonandeilhr directthe PROSto Ibous
-u$ivdya~mtk~~of~,~~m~=d
how quality ~t@paibtprotection
            “                        f&noticms
                                             cimreusonabIybeperfoxmodbyanc
organ@don.

We  do not concur with M fm option becauseAARPbelievess?xon@ychatPROSshould
main the msponsibilhy to idend@ sad respond cffkodvelyto poor~ pcrftmntng @yatcians
and hospitals. To do S0,@c~tierkt pmtim demears ahmddbe StIUI@WBdSOthSt they
can be ellkcfive. In addition, t&equality _vcanant   functionsPROShavs assumedshould
be evaluatedto assess their impacton patientwel!-being.

                           .     .
Jhckpmund an~

As AHlatest draft report ixxiicatw, #e PROpmgnun bm undergonea pmfd     uadbmmth
dwhg tk lastsevwd yems, fkomme fwwed primsriiy on ident@ing tu%iaddressing
individual k4aneos of pvor wireto ORScmpbaaizingthe overallhuprovameQcof mm through
cooperative+quality improvermmprojscts. The transformationwas sat h motion by W 1990
Institute of Medicinerqwrton Mediearequdiq assurance, endbaaptied       ~    @ atcoq
Suppott of thehealthpolicy andprovklercommwmies.




  Anm4cm ~0~          of~~r~ P=$u         601E SUCC% N.W.,    Wmbin&oIt, D,c.   2004-9 (202) 43+-2277
        EUgQIUt. bkIHIJh       .?%’i&a/                        Hence B, Deem &Jmdvt Dimnw
                                                .-.
                                                  Y.
                                                \ .-.
     Inspeetor Chard  BrowrA
     Novmabcr   21,1995
     Page 2

     f)lUiII$Sk dcbatoa~    ~d      the tGUISfOIIX’IatiOIL
                                                      ~
     ~       &WftO.@On of
                                   (CQD principlesand methoddogiea ho SheFRO-hoapiwd­
     “ContimIonsQuality,Iinp.rovemcmt”

     phpn    Mcx@on. At the sanwdine,h~er,      tie Aamei@on   -     CM Mdibuc
     padems’imcmatarequirednxaion of PROS’capab~ coaddmmidividual poor
           .
     perbmmmand                                  mentkx&
                   poorpe@rm!m ti3rougltvi@rou$iute

     OIG’s drafkreportdocummtsthefollo-.

     1.	 w*&pti~mofa{d                 m@mvbw,     mo*tim*d~h
         -    ofdermting ktancea ofpoorcaxe. Rcoonireviow ad da~colktionhad             beers the
         PRO tool tkt idaniilkd 71 perccmofquaLity
                                                 problcmainrhe pt.

    2. Thenew climateof coopemdonwkhthephysiciawhoaphal  ~v~bY­
       “CQI*approach,whileadmirable,appedrato havetakensomermthm of sherole of PRO
       aawatchdog. l?ilra~PROaate idcm@ingveryf- qualityproblems. SeeoT&PR@ are
       MfoMo~~onti~             @i_        bWOIG~d           Z~~,     oflti@@
       problemsidentified,SOpercentwm hatulkdby OIXPRO, andPRO action on quality

       problems
for the most part waa a letter of cautioxL Third, shore is no evideave tha follow
       UP ISnow beh~ handled by hoepitals, Fihdiy, it appeamjhxn OIG’Sfludingg chatPRCh
       arenot sharinginformationon qwdicyof careraseawjthstarelieendng boardsaJrequhd.




Q Esmbliahmemof a homca.1dischargeappealsya@mthat embl~ paticauKO   requesta PRO
  reviewof a deciiion to terminateMedicare      of a hospital stay.
                                         covernge


�	    Thebeneficiaryc~mplaintauthority,whichenabltabeueiiciadeato obtain a PRO rcvkw of
      an We$ation of ii quality of care probkrn.

�     The oYerail PRO xcview authoritythat was pmnously implomenrfd through ramiom eaat!
      rcvkw aimed at txncove~ quality and uWrarbn conccrxKLbus whioh now utilizes paltern
      tiysis   k the puxmit of IItainatream quality improv~.

In resporuiklg to the dl-llfirel)orc’srecommdatl ‘on, we believe it should bo evaluated in the
comtext of all the padeut promxkmtllnctions ourlked above,
 InspectilrGeneml Brown
 Novomber 21,1995
 Page 3




W&ile not the su@ct of the draft report, the PROs’statutoryresponsibilityto respond to
Medicare beneficiaries’~       for rdew of a hospitaldiachsrgc_        cO_       10CmbOdy
aaiqortmtpadempnwctkmmle, Rcoomly,AA           RPhaspM patedinab       skfore@efbrlto
 improve the Wmrxunlcation of berletiiaxios’ Ciis&qe appeal rights Ihrougb a mwrkhlg Ofthc
  “Important Message ftemMedicare”andtheuseof additionalmdxds, wch asWoos mde
 available to hosphalizod patkma and their fknilies. HCFAshould proceed with
                                               .
 fmplememat$omtithe task force mmmwdmm              , and PRGashould wdeztake to aggmdwly
 informpatienbofthcir dkhergeappudxiglm. ‘lhcrahasaotbmn,aa dahouldnotbo,any
 conilictbetweenMEPROrole andPROS’newerquafityimpmvememflnmioas.



01G6 recent companion &sit report on the benefiekry cumplaint anthorip rmmaied Wrimw
operatlOnai doficiela5es, wbicbMRPaddW#cd       iJlitecoxmm?m &t&r of~27,         1995.
As we sUNcdin that letter. ‘In,liglxof theetjminationof randomsamplerecordmviawthe
processof Mm?-@           relqmldiqgto bmll@uy eemp-         aasumeaevellgmter
-ce~ameuti~b~~Mtim~w-~s

TheOIGreportsmakeclearthatcomplaints~        be+ma productivemum of qualityof csre
conocrn$.Moreover,k ia char thatneitherH@A am the PROSperceiveanh!xxmq@bil.ity
Mrwecnthe eomplaiatautheri~ml the qpalityimprovemeau    strategy;~hint     inW6@ation
isaprominem fknureofthefifthsmpeofwork’spadentp nmctiondement% mm AARP’a
_ve,        tie complaintawhor& dcficieaxiesshouldbe remedkl, patimcsshouldk -C
awareof its exktence, awl PROSshouldcontinueto serveas complaiutixveaiigatars.

3. XJe PR~   v’

PRO-initiatedreview activitypmsmta b greatest pemcived-C     between a strategy aimed
at identi@ii poor pcrfbmwrs, and one aimed at qwdi~ improvement. Clearly, tbe la-
Sua@gyhas~vaik~ and,aathe 01(3 reportobserves:

      W& recognizetharthe nzndam nndews were Uor-inrmhg          gemrmted much dkcowl
      widl ~hemedictd cornnmnity, anti idenrg?edJ%w@@@+car e problem mhtme rv the
      nundxm ofrecod rew”ewed.We ati undemtundtlurr chepmrn&r qfrhe PRO
      &ogram’s ment dincrion hoiclrpnmd$efor lqrvving #u overallpmcrice of
      medicine, 7hi.ris @great impo~e       to Medicare hnej?duia and others. ”
  Iaspectur Gened Brown
  Nowubcr21, 1995
  *4


  lthMbm       W~on&Msee                    bMba        CQTwiew-wtiqq
  patiti~~-          ~over~~m~ti                 p~,       dtie~~
  individualmlaRaxl Ofpoorqueli!yWiutin boaddxcosed-                sciplinary
                                                          cdlxationalordi
  responsesas rcquhvd. 10thismnuecli~ animeresdngfioding&t& (XG mndyis that77
  percentof* PROSquerild(17 outVfz) boliew lhatthetwo no fimdims     areCOmpadble.
  Atthosametime, however,halfthinkbencficiarypmectimshave bomwebytie
  cwrentscope of work.

  Fm~tij~ontie             sWti&ews~Wistiti                    Tloncwatraegy isapmmidng
  one, but remaius ~V~tdktOimSOf~l~~~Qn~~~.                                    we-
 OIGto~e~&witi~to                         timm      Arc~dfi         RWk~W
 IknprovexxxxProgram We alao, as duted above, -b             the importanceof viewingWtOa’
 patient protection role in a broader comextthaxincludesrhe disobargeappeab awl bencf!eiary
 comphi.imelomenrs. Curren@, those eknems exist Iargclyas “paper”fimctbs, and require
 extensive pubkity and opemtimal @rovemmm          coenable than to serve padonta adquarely.

 pk~S WXMili tk ItUIjOr
                     lYStiOOd

                            ~@Wri          Wtfh SU@O’dy tt)iUtWVIXW ~   khdf   Df MUii~

 beneficiariesandfleet theirqualityof care, As moreof those bendciarb move into @w
 forms of hedlh cam delivery, with hadal Hvea      that possibly tbaten healrh W
 @=W# P*-       Pro-M            be=me -      more CWcal.

 Tho OilIce of In9pector General’s ongoing efhta la otYerremedies for aml deficienciesm the
 PRo program cmninue to prwide a great service co Mcdioam &ae&bes “ .Wekmklbrtvd
 to~toworkti                you~d~btim                    mb~ati~~q,

 Thank you again for the oppommity to cxxnmcz&If you should have any questions, phxme
 contactM-JO     Gibson  in AARP’s Public Poticy Jhstituteat (202) 434-3896 or -I
 Matheis in Fcdezal MU’s at (X2) 434-3774,

sincerely,

*&
Volm
   Rdkr
Dream

Legislation and Public Policy

                                                                                       .—




                                                           October 16, 1995



June Gibbs Brown                  ,

XnspCctorGeacrei

Depamnent of Healthsnd HumanSewic&z

Washington,D.C. 20201


Dear Ms. Broww

           Please find enclosed our comments on the OIG’S draft repo@ “The Medicare
PeerReview or@lJbti021S’   Role  in Idmt@ing md kpmdiq          to Poor Performers.”
We appreciate the opportunityto review and commenton (his report. Pleam let us
kuow if we can be of furtherassistanceto you or your staiT in your studies regarding
P= Review Orgsnimtions.




  SkJJiC
   u
Si&ey
Director
             sw   fe, M.D.                                      Laureu Dam
                                                                Staff Attorney




Emiosure



                                   fblph   Nadrr, Frnadu
            co~              ON “~       MEDICARE p=        RE~        ORGA~~ONs*”
       ROLE 11+1
               IDENTIFWNG AND RESPONDING TO POOR PERFORMERS”
                                           (OELOM2-002SI)

                        Submntcd by Public Citi&n’s HeahhResearchOsoup
                                       October 16, 1995

        Wc qpwiate this oppwtmhytounnment  nnthisreport bythe OfTweof I~
  General~OIG”) ofthc Dep@nwntof HealthandHuman Semoes (WHS”). Public Citizen’s
  Health Research Group has k        a ~          of theeoaceptof P= Reviav organizations
  (“PROS”) since their inceptiom end believca that PROS, ifsmq@ex@       could Serve 9 M      roje
 in protecting Medicarebeneficimies*        P- CPM@ndicai -.           A the repofipints ou&
 the main emphasisof PROShas shiftedin the past fw years from ttying to identifi end
 resporxl to imiividtlal phyalc188Sand hospitals that are performing poorly, to incorporating the
 concepts of “continuous quality irnprovcmcrd’! md umrlcing with the medical conmxmity to
 improve the overall quaiity of medicine.

         We agree with the report thaG given this shifl in focus, it is hn-t     co assess the
 abilky of the PRC)Sw continue to perform tiir “policing” role. We disagree, hovwwer, with
 the policy options suggested by the rupor% partict+arly Option One – to eliminate tha PROS’
 role in identi~      and responding to individual poor pcrfimnus, and to focus only on
 improvesmmt in the overall practice of medicine. We      “contitmow quality improvement” is
 a vvclcome addition to the methods of protecting Medicare I-ef3ciarie$ it dots not and
 cannot, replace the necCsWy task oftkcting   poorperforrnent.fmpruv@ theoverallpmctice
of mdiciac may ineidesulyidenm some poor perfbrmen,but such is not its prinmy goal.
andin orderto fully pmtcctMedicare beneikhries. the govemmnt mustcontinueto seek out
those docto= and hospitals*      cawc needless sufkiog because of I—C= ssary or poor
quality medical cam At_          thereis no organizationor ageacy b adequatelyprotects
Medicarebenticiasics orthebroaderpatientpopulationtlom @y porfonningphysiciansand
hospitals. Whatprotectiondoes exist comes from a vasicty of groupqsuch as state medical
boards,hospitalqualityamuranwdep~            ~on          org=imtio~. md o*m Whi*
at best offer only a patchworkof protection. Emh grouphas a difRmmmission and focus,
andeach protcas the mstdicalconsumerto oxdya iimitcd degree.

        � State medkal boards, the fii line of defense against poorly perftmnmg physiciq
have a mixed record in protecting the public. Each yesr, PubIic Citizen’s Health Ikearch
Group compares the perfonnanoe of the various state medical boards by analyzing the rate at
which doctors are disciplined in each state. We have found an enormous variation among the
difkrcnt state licensing boards: in 1994. for �xampk the Kentucky Medical Board had a rate
of 9.62 seriow disciplinary actions pcr 1000 doctors. while the Pennsylvania Medical Board
had a rate of only 2.04 suiom alinxy         actions p= 1000 cioctms ~s,    while some state
boards may offer masnnabk protection to citizens in that slam. other boards discipline sv &W
physicians that they offer tiost     no w~tion    m~
       �    Hrmpitd   qua~     ssmrmee    departrncnts, another possib~e line of defense against
poor performance, conduct dtcir bwincss     behind a shroud of sscrecy, making it bard to assess
 the S~        of their cffO~- & Of hcambcz        1993, howcvm, Sevcmy-five pemcnt of the
 hospitals in this country had not reported to the National Praotiti-     Data Bank even ona
 adverse action taken against a doctor. Given the wry limited number of reports fihxl by
 hospitals  -- _~byi=W-                     there is reason to quastion whether hospitals are
 acsivaly iddifjhg    and responding to poor performingktor~     and to be wnccrnerl about the
 level of protection provided to patirmts.

            �Aecmdtiag orgdzatioma      that inspecthospitals    -- the most  impmtant   being  the
 hint  Gxnmission on the Accreditation    of HealthutreOrgmizmiona(“NXHO~ -- offbr little
 to instill coufMenm in the public. LI%O    hospital quality assurance -~u,            the KWfo
 maintim the results of its inspections in secrecy,andrarely*           *cRditatioII to a hospital.
 Public Citizen’s Health Rtaeamh GrotqJhas long &en critical of the faot that the JCAHO, a
 private organizdon dosnbtcd by the indusrty it is supposed to be regulating, has been given
 so large a role in “pmtcoting” Medicare beneficiaries from poorly performing hospitals.

       Option Onc in this rcporr includes ,& mggcdon that the Hcaltb Care F_ing
Administnititm consider ways for the fkxfcraigovernrncmto suppm the efforts of organizations
that - tnmc fd         on addxcs&g individual caxs of poor cam - this is an idsa rhat we
suppoc but notat the cost of PROS’ “pokingrole.”Em wirhthecxxsmxe of PROS, the
~m     fm kkntifjhg   and respdbg     to poorly performing physicianssnd hospitais is hardly
a scamieas web. WithoutPROS,?hcmwill be �ven less prorcction for Mdkarc bcncficiarics.

        option TWO~          -g       the PROSm dctcsmine &        &Y can perform both
roles atthcsarno~tif            m,howbcstodom.          Whdewcsupport fiJrther study to
determine ways to improve PRO$ WCJ
     would like to point ow hat most of theprobicms
idcatificd in this report Imvc been identified bcfm in theseries
of OIG reportscited in
Footnote 2. WC     thePROS’ shift in fbcus may have exacerbated Wme of their probicntsin
ided@ing and maponding to poor pcdorrncrs, the nattm of tbe probkms has not cbnged.
TO boom the perfomuuwc of pRO& therefore. w suggest that SOMCof the recommendations
of ptwious reports be vigorously irnplcmcnte4 ia palticuk

        ‘ HHS shouldpropose legislation requiring PROS to provide case infimnation
        to State mdical boards when PROS have con6rmcd that a ptIysicim is
        responsible for poor ctuality of cam rcsuking in harm to the pet.sent. T%e
        legia&tion pmposcd should resoivc the umfbsion causedby OBRA ’90. (PL
        101-508), which rqukcs “notice ad hhg”            ~0=   PROS sh~ ~
        information.
        �
           KHS should seek legislative change that would pcnnit PROS to provide and
        ~ive     data from the National Practitioner Dara Bank. (he of the problems
        idcntifld in the report is the diflicuky of a PRO determining whether poor
        behavior is part of a pamn or merdy an isolarcd incident and tuxss to other
        information coilmtd in the National PractitionerDatn Bankwould assist in such
        a&termu@ “on.

                                               2
                  “ m     slmuld sdc ~C@ltiW -           to imeasc the amount of JZIOM&U’y
                 pemddespexmitted in order to make them a more meanhgM      sanctiom     Current
                 lmv limits monetaty penalties to the amount of the medicdly mmcusuy           or
                 impmper wrvicc -an amount toosmall tosweasa,nadaquate               sanotionor


             �  W              sbotdd *    legislation
                                                     to repealthe mquircment that physiciansor
             h+ds              Which hWC   ViO&d  Mldkdrc obli@ions IItlly b S=CtiOllCd only if
             they demonstrate au “unwillingness or inability” to comply with Medicare
             obligations. 010 reportssince u iesst 1988 have &mti&xl this “unwilling or
             unable” requirement s a major impedimem ro PROS ex=isiug thcii sanction
             referral authority, and havw WcOmmendeddcktion Of this n@re?neIIL

             �     HHS should inczeasccducatiomdand outreachcfibrts to inform Mcdicarc
             beneficiaries of the existence and fucdons of PfUls. Bencticisry wmplaints
             will become an even mom importantIsourccof leads f= PROSas the mndom
             sample       medical record review is phased OUL

        PROS can save a vital role in pmtmdng Mcdicam beneficiaries fm poor quaiity
~dc~b~hwnotym~ti~loti~t~                                  OVWti P=tycam PROs’ use
of their simction authority h- dtidIuL and now with* shift in fww to “contimmus quality
.
~“               and eduoiatioxu we & that PROS till become ICSS effeotive   unieas the
rcwmmendations                 made in previous 01(3 repo@ attd repeated here in ous commmts. are
ilnplcmenuxi.

       We arc not unmindfui of tho difficulties PROSmay have as their msoumes areshiftcd
more and more towards doming their mandate to improve rhe general practice of medicine.
This focus, however, cannot replace the ncccsary task of i&ntify@ individual pooK
performers       physiciansandhospitals- in the medicaificid- T&ctwo approachesdeal
                    -   both
with difIkrentaspects of qwdiryproblcu and no matter how much “continuous quality
~t”              is abk to raise geneml staurkds of medical c-   there will always be pour
performers who iqjum individualpatientsandwho must be detected and sanctioned. PRO%
in order to filly protect Mcdicam t=neficitiex must be strcngthend to perform this set+-.




                                                        3
                                                                                                               —


Coalition for Consumer Protection and Quality in HeaithCare Reform
                     1275 K Street, N.W., Suite 900            Washington,DC 20005
                                (202)789-3606          Fax (202)842- 1 I 50



                                                November
                                                       6, 1995
      Ma.JuneGibbsErown
              General
      Inapecsor
      ~          ofHealthandHumanSenficea
      Cohen Wilding, Room5250
      330hv@endeIIwAve.,S.W.
      Washin~ D.C.?lMll
         Ma.Brown:
      Dear

            M YOU  for asking LheCoalitim for Comer Prote~on and Qua@ m Health Care Reform
      to~em   m yourdaft r~, “W h-f~mc peerReview orxtim”           Role in Identifying
                                                                                      and
      -am-per      farmers.”
              ~e thlitionis composed of mom @ @           OrgSSI&ItiOIIS witi thc c-on     goal of a health
     care system that offers good consmner information, meaningful choice, quality assurance, and public
     acumntabiiity. When we receive a tequest for commem such as yours, we cirmdare the document to our
     ItMMbershipasking for their comments. Depending 0SSthe issue, we may receive one or more
     comments. Forexample,iny~ previ~ report,deaI@wifi Wmpltit                haIKU@,   four of our member
     organizxions -d.           We ~ways ~     OKI
                                                 the -M       ~eMS       of w meo&N, as we did with the
     above-mentioned report.

             Onsome issues, rhe CoaliiOSI as a Whole takes a psition. ne nature of our Coalition is such
     that when we do take a Coalition pogition, each memberdoes not mssarily SWbacribetoevery.s@tic
     recomsnendation, butrather suppona what we say as generally on rarget.

              Wheuonly one or two of our members respond to a ~1 for COUMNZIU,  we do not usually take a
     fOllrmlpositiou as a Cdida.   In the ease of your ~M  draft rqfl on identifying and re3p0tMing to
     poor performers, we received only one comment -- fromthe CitizenAdvocacy  Center(CAC).The
     COtmneM
           is enclosed,While1cannocstatethatCAC’scommentsrxnt                 theCoalition’s
                                                                                           position(since
     so few of our members chose to express a view), I can say &at they am qnite knowledgeable about this
     p~~ ~ q generallyrepresentthev~ewsof mosrCoalhion members.
             Thank                   to comment.
                 you fortheopportunity

                                               Sincerely,




                                               BrianW. Lindberg         1
                                               ExecutiveDirector
                                                                                              [IXugcomz.wps]
                                              C9mENTs
                                              en the

                     J2EPARTMKNT

                               OF HXALTH AND HUMAN$SRWCZS$
                          OFFICB OP INSPECTORGRNERAL
                                  DRAFT R8PORT
                   ‘The RMJIMcasemar          Rwviaw     Grgamisationet   Role
              *	   Xdhntifpag        and Req)ondsn$to Pees Pwfoxuem”
                                        hs#u8t, 199s




                                     is a WL%queeuppoxt program
         The Citizen Mvooaoy Centar ((SC)
for     tml   thouelacw         of   public
                              maNbere who eerve on health Oara
regulatory boards end govern~ngbodlss as representativesOS the
ooxammer Interest, Uhather appointed by govornose to serve on
regulatory or other health policy boarda or @elected by private
~ectsr institutionsand agencies to se-     on boards or advisory
panels,  public anembers are typfcdly in the minority and are
u8ually without the reaourceu and teuhrdod   support available to
their counterpartsfromprotess~onaland businessoommunit$es. -C
is a not-for-prof$t501(c)(3) arganimtion    oreatsid to serve the
publZc Sntere8tbyprovid$q research,tsaining,    teohxdcde upport,
and    networking         oppcxtunit~ee        to    help   public   members make their
wntr$buticm~           informed,      affact%ve,and n$gnif%cxmt.
       OnaIof CAC’a networmi (caU6td “PROIWT”) is oompomd of the
beneficiary    members     of the Boardta  of D~seotogS   of the Me44csare
Peer i?evXa$wOrganisationswhich are the sub$eot of this draft
report .   From time to tlam, PRONET        takes positions    on matters of
particular interesttu Mediaarabeneficiasiew,              whioh inolude OIG
reporte dealing       with the performance@f PROS. In thi.a Xnstance,
PEd!wErlMS&?t yetspo&en Onthedraft              reportthatis      thesaa@ject
of @xe*e   ~ts.            At ite most racent annual     meeting in
GepWnk,       1995 4n S81t Lake City, Utah, PllONP?f        members adopted a
reeolut~on    oalling     on CAC to convene a fwzum where PRONETmember8
would have an opportunityto review and debata the d$reot$on of
the M@icer@ quality          oversight program and to develop a “White
Paper”   on tha @ubject       for presentationat the 1996 annual

                                                    1

meeting.   1   !fhw,     PROmr    ts   comments         on    the   fhading8    end
reemmendation8 in the OIG’s draft report w1ll be conta$nmd in
that future document. me  commentspxeeentedhere regleot the
views of CAC*



     The    OIG     presents two major            fhditqp:

     1) Ae tha PRO Program becomes inorees$ngly oommitted to
     improving the overallpraatlce of medicine, Its ability to
     find and take actkn on poorly performingphysiciansand
     hG8pita18 Ls questionable.

     2)   ‘NatBPR@ themselves    i!indmuch that iz positive about                         the

     ourmnt    direotion   of the Program. Sut some tmpralm

     rs8e~ations      about Atm ~mpact on protectingMedScere

     benef$e%ar~esfrom poor performers.

     M     arriving at finding #1, tha                   OXG concluded that PROW:

     -     find’ thamaslvee        with very limited leads t~ idantify
     #OOZIY performi~             @’&B~ChXW  or hospitals):
           are unl~kely to determinewhether inoidente that are
     brought to their attsntion                   are    $aolat@d      Went@,    Qr Jmrt19of
     a pattern M  quwst~c?nable               care;

     - sarely do more than inform those responeibla of the
     natureof a quality ag care problem when =na is oonfirmad;
     0     submit      vktually     no sanotion              Iwwxxmandatione   to the OZG
     (the number of sanction mxxxwaendatiozm                         has deolin.d   from a
     high Qf 72 in 1987 to only 13 in 1994):
        XxBfarvary few C86MMJto state boards of medicine, even
     %ough 1993 federalle$ialationrequires    them to do sm.

      Xn arriving at finding #2, the sMG coneludad that While 27
of  22 PROIB(77%) believe  that the two b8eZo PRO funetione --
improvtng the Maimtream    Qf care end dealing with poor pexferm6rn
--are Compatible,59? of these same PROS have concluded that
benefieiaxy protwtiorw?have become w~akam.

     Having made these two findingu,the OIG sug$eetad to the
Hmalth Care Finmcin$ AdNMni8tratiUn (HCFA) that it has two
options for the future.  Thewa are:




                                              2
        OPTION 1: The HCFA should prooeed toward diroctl~   th@ PR08
        to focus ex4u81vely on improv4ngth mainstreamof Oare.
        TQ help deal with poor per ftmnerw, it �hould oonsidarways
        in whioh zha Federal governm9nt mdght auppoxt other bodies,
        @JUOh 8S    State   Madloal boards and ombudsmen,that are more
        f ooused on @8res6ing          individualoases of          poor     meditaal    oare.

        OPTION 2S The WFA           devote furtherinquiryto
                                  should
        determine:     (1) if   thefunctiunsof improvingtha
                                       mm
        m8&netreamof aare and Sdentif yin$ and dealingoffeotivaly
        with poor performer8  can rea~onablybe Per$osmedby one
        oxganAz?xtton,  and (2) hw PROS can carry out both
        u~multaneously,   Toward that end, At oould support resaczwla
        6f fort8, damonstra~ion projrectaby i.nd~vidualPROD, and

        Oonferanoaar   .



                  with the FourthScopeof Work
        13894nnix19                                           h     i993,     iiCFA
dramatically olwnged tha primary funotion of the PROS, Thn PROS*
naw assignmentwas to analyzmpatterns  of oare and outcomes, and
Ew@!J  thie     iIagorm@$On     W%th    tm   mad~m~   COIUUUdty.            moa    aov’ed
away ftom     Aaadividuel
                        chart reviuw dmignad             to       Ment%fy         pmr
performers, effeotLvely ending their role aa polioanen,em wLth
wh$ch most PROS nmver seemed comftrtmbae.  Organized med$cdmeand
the pr@idez ooaununity reactedfavorablyto this Ohange in
dimotion.

     Bven durhg   the yeare when PROS devotedmout ot their    ensr@y
to ohsrt ravigw, t?my were regulaxly    or ftiaiamd fax doi~ a poor
job of policing poor performers.     They sent very fsW =WJCt$OZt
rewmmendations  to the OXG. Tht$y failedto davelepcoopemtiva
relationshipswith boards of nwjdicine,     whloh have mom
disciplinaryauthor$tyand broader powers to supplementPRO
8anctionauthority, Very few quality of care cases have lxmn
referred by PROS to state madicml boards.                PRo$itended to prefw
aduoationalInterventions  over 8anct&m30                 Even 80, as an earlier
OIG roport  revealed,    pm educationalinterwmticms                       fm-alW
con8i#ted  of notifying a provider of a mnfirmed                     quul$ty problem
and adcinfj the providar   tc? dw eomethingabout  it.

        While theZroperations    have now changed under tlm Fourth and
Fifth            Work, PROS still
         ScoptiIs of                   retajxa the legal au12t0~lty and
the duty to identify      and dsal with poor perfomueru,     PROS
continue to reoe$ve oomplainte      from beneflciarieaand have tha
raspcxwibilttyfor addressingany qualityproblem revealed             in
these Oompla$nts.

     CAC bel%eves that the 01(3 draft rmport accurately8tat0a the
.Optione presentlybefore HCFa -- 1) to relieve  PROE of
Xeeponeibllity  fgr dgal&ng with poor performers, or 2} to fi~ a
way to reconcilethe apparentoonfl~et    betweem this

                                             3
reeponmibility and   tlw   PRO*’ pottern analyg$m   qual&ty   lmp~
activitlos.
      CAC reseweu    f$nal judgment until   PRONBTha* X    m
QEmJ=@@ty to --            -    debata the PRO=’ qualsty Pfoteottioll
role.   Neverth@eea,    we will   way ~ha+ we +Unk a lot of
Oonvinchg       *4! needS tw justtfy    oontirwing to sely on PR08to
police poor pergcmmra. Given that PROB did an fnadequatejob of
dealing w$th poor perfozmazs when th$u was one of their         majer
S96m8~&MXitiOS,         whet 28 the evidenoethat PROU w4%1 do 8 mom
~blo            j+   ef POliCMMJ welity   xblantm now tbt    t~e has
becomea lesser X?8Bp0n8ibility in the PRO Scepe of Work? It
would be 111.Ssl*ad4ng for PROS to hold thwwelves out as part @f a
?sWety nea but fa$l to ~rovide    meaningful protaotion.




                                    4
PRONET Ri590LUT10NS passed at the Citizen Advoaacy (%ntw “PRON~            Annual
NleeUng, September 28,1985.



RESOLUTION REGAR!31NGTHE PRO BENEFICIARY COMPLAINT PROCESS

      WE, THE PRONET BENEFICIARYBOARD MEMBERS ASSEMBLEDFOR THE
1995 CITIZEN ADVOCACY CENTER “PRONET”ANNUAL MEETING IN SALT lAKE
Cl’W, UTAH ON SEPTEMBER28, 1995, ENACT THE FOLLOWING RESOLUTION IN
CONCERN THAT A MORE EFFECTIVE AND MORE ACCOUNTABLE QUALllV-
RELATED COMPIANT PROCESS IS NECESS4RY TO ADEQUATELY PRC?TECT
MEDICARE BENEFICIARIES:

      WHEREAS, the U.S. Departmentof I=k?afthand Human Senkes Office of the
InspeotorGeneral (01(3) reoentlyrebimed a draftreporta$wsaing the PRO berietldary
complaint prooess and found such complaints to be a rtoh souroe of qualm of care
pmblem$ and oritical to the PROS’ abiiii to protect beneficiariesfrom individual
instanow of pow care, and

      WHEREAS, mostbeneficiariesare unawareofthe PRO oomphdntprocae6in apita
of years of outreachaml pubticeducationefforts,and

      WHEREAS, majorbarrierato an affectivecomplaintprooess includethe current
federal confidentialityrequirementsand the iengthyinvedgatian process,

       THEREFORE, BE IT RESOLVEI) THAT the PRONET Members attendingthe
1995 Cflizen AdvooaoyCenter “PRONET’ Annual Meeting urge i+CFA to adopt 8fId
implement the 0K3’a raoornmendd.ions,
                                    including:

      1.	   That i4CFAwork withPROS te ident’Hycoat-effective waya to oomwt the
            fbws in the complaintprocessand requirePRO$ to reepondsubstantiity
            to the complainantas wggested by the 01(3 report.

      2.	   That HCFA work Wth the Citizen Advocacy Center and AMPRA’s
            Commurhtions       Network to ide~    mat-effective ways to enhance
            Medkare beneficiaries’avvarenesaof PRO$ and the complaintprowss, in
            additionto the fifth Scope of Work oommunioations  directivesthat foous
            on Health Care QualityImprovementin-Kiatives.

      3.	   That HCFA streamlinethe complaintproows in order to expedite the
            investigation and rospoma prooessm To that end, PRONET urges HCFA
            to workwiththe CitizenAdvocacyCenterto collectinformationabout how
            otherhealthcare oversight @dkm such aa state Iicerwing boarda,ccmduot
            complaint   inve5tigation6.
RESOLUTION REGARDING A FORUM TO REVIEW AND DEBATE THE DIRECTION
OF ‘THE MEDICARE QUALIIY OVERSIGHT PROGRAM AND 17S IMPACT ON
MEDICARE BENEFICIARIES

      WE THE PRONET BENEFICIARY BOARD MEMBERS ASSEMBLED FOR THE
1995 CITIZEfNADVOCACY CENTER “PRONET”ANNUAL MEETING lN SALT LAKE
CITY, UTAH Ohl SEPTEMBER 28, 1995, ENACT THE FOLLOWING RESOLUTION IN
CONCERN ABOUT CHANGES !N QUALITY OVERSIGHT BODIES FOR THE
MEDICARE PROGI%AM:

      WHEREAS, there is a questionabout whether the PRO movement in today’s
climateof deregulationand majorchangesin the delivefyof healthcare in the Medioare
program(and Medioaid,etc.) has beoomeirrelevantand veetigial,and

      WHEREAS,~             ‘ ae u oonoeptanda strategytirtho assuranceof quality
owe for Medioarebeneficiarieshas been etfwtively dismantledand the vast machinery
of that systemuf review, overnight and l~teraotion has been disassembledand its value
dissipated,and

     WHEREAS, there are varyingdeQW6 of imoeptance of these chartge6 by the
medkd profedon, researchwmmunity, and Medbwe benefidarb, and

        WHEREAS, PRONET has not had the opportunityto date to 8dquately ooneider
these varying opinionsand developits own oolleotivepositionon how these ohartgee
effeot the quafii of heatthcare fromthe Medkare hmficiw)h PWWWVe,

       THEREFORE, BE IT RESOLVED THAT the IWONET M8mb9rS attending the
18!M Citizen Advocacy Center“PRONET”AnnualMeetingurgeCAC to 00nvarwa forUtll
where PRONET memberswouldhavean oppmtun”~to reviewand debate the direction
of the Medkare quaiii oversight program.

       BE fT FURTHER RESOLVED THAT this recommendationshould be given the
highestpriority$0 that the PRONET SteeringCommitteecan develop a “White Paper”
that reflectsthe colleotiiethinkingof the PRONET mernbwshipto be pnmentedduring
the 1906 Citizen AdvocaoyCenterAnnualMeeting.

RESOLUTION REQAR9NW THE tICFA CONTRACT BIDDING PROCESS

      WE, THE PRONET BENEFICIARYBOARI) MEMBERS ASSEMBLED FOR THE
1995 CITIZEN ADVOCACY CENTER PRONET ANNUAL MEETING IN SALT LAKE
CITY, UTAH ON SEPTEMBER 28, 1995, ENACT THE FOLLOVViNGRESOLUTION:

       BE IT RESOLVED THAT the PRON~ Mernbwe attending the 1$95 Cit&en
Advooacy Center PRONET Annual Meeting u~e the Health Care Financing
Administration(I+CFA)to reassessitsrule~governingthe PRO contractbiddingprcxwm
for designatinga PRO ina Sivenstateto assurerrwixlnwmfairnessand aquai application
                              APPENDIX                   F


                                          NOTES


1. The Institute of Medicine, Medicare: A Strategy for Qualizy Assurance (Washington,
D. C.: National Academy Press, 1990).

2.	 U.S. Department of Health and Human Services, Office of Inspector General, The
Utilization and Quality Control Peer Review Organization Program: Qualip Review
Activities, OAI-01-O0570, September 1988; The Utilization and Quality Control Peer
Review Organization Program: Sanction Activities, OAI-01-88-00571, November 1988;
The Utilization and QualiV Control Peer Review Organization Program: An Exploration
of Program Effectiveness, OAI-01 -88-00572, February 1989; Educating Physicians
Responsible for Poor Medical Care: A Review of the Peer Review Organizations’ E#orts,
OEI-01-89-00020, February 1992; Peer Review Organizations and State Medical Boards:
A Vital Link, OEI-01-92-00530, April 1993; The Sanction Referral Authori@ of Peer
Review Organizations, OEI-01-92-00250, April 1993; and The Beneficiary Complaint
Process of the Medicare Peer Review Organizations, Draft Report, OEI-01-93-00250,
June 1995.

The Office of Inspector General has also issued a number of reports on DRG validation.

3. Reflects reviews completed under the fourth contracts. The HCFA staggers the
starting dates of the PROS’ contracts, thus some PROS began their fourth contract in
April 1993, some in July 1993, and some in October 1993.

4.	 The volume of random sample medical record reviews has historically been so large
that even with such a low confirmation rate, the majority of quality-of-care problems
stemmed from those reviews.

5. Hebbel and McMullan to Executive Directors, Peer Review Organizations,
20 December 1994, Health Care Financing Administration, Baltimore, MD.

6.	 Other than beneficiary complaints, PROS are mandated to review the following types
of cases: Assistant at Cataract Surgery, Medicare Code Editor, Hospital Adjustment, FI
referral, RO referral, and Hospital Issued Notice of Noncoverage (HINN). The PROS
will also continue to do some miscellaneous reviews. However, the most fruitful source
among the miscellaneous reviews--the readmission reviews, which accounted for
9 percent of the 6,010 confirmed quality-of-care problems that PROS identified--will also
be eliminated.

7.   The Beneficiary Complaint Process of the Medicare Peer Review Organizations.

8. Those who offered an estimate reported having received one or two or a few such
referrals.


                                           F-1
9. Those whooffered      anestimate repofied having received between one and four
referrals from hospitals. Nine of those who offered an estimate on physician referrals
reported having received either a small number or between 1 and 4 such referrals;
1 reported having received 6; and 2, 10 or more.

10. We understand that PROS, through their HCQIP cooperative projects with hospitals,
could identi~ instances of poor performance. However, unless the questionable care is so
egregious as to prompt a sanction recommendation, it will be excluded from the historical
data bases of quality-of-care problems that PROS monitor for patterns to emerge.

11. As required in their contracts, the PROS also profile quarterly all the quality-of-care
problems they have identified. This activity does not involve reviewing additional case
records on a particular provider but is simply a method for monitoring the PROS’ pool of
quality-of-care problems to identify patterns of poor care.

12. In determining whether an individual quality-of-care problem would result in an
improvement plan, the PROS considered the existence of a pattern of quality-of-care
concerns or problems and severity of the problem/harm to the patient. Some PROS
reported also having considered whether the problem could be corrected, the receptivity of
the physician or hospital involved, and the opinion of the medical director.

13. U.S. Department of Health and Human Services, Office of Inspector General,
Hospital Reporting to the National Practitioner Data Bank, OEI-01-94-00050, February
1995.

14. The National Practitioner Data Bank, established in the Health Care Quality
Improvement Act of 1986, maintains records of medical malpractice and adverse actions
taken by hospitals, other health care entities, licensure boards, and professional societies
against licensed health care professionals. Hospitals and other health care entities must
report to the Data Bank all adverse actions they take that affect a practitioner’s clinical
privileges for more than 30 days.

15. We reported that the unwilling and unable requirement remained an obstacle despite
the Administrative Conference of the United States referring to it as an “inappropriate”
burden of proof in 1989 and Congress’ attempt to make it more workable in the Omnibus
Budget Reconciliation Act of 1990 (P.L. 101-508).

The PROS cited the high costs, the complexity of balancing physicians’ rights to due
process with the beneficiaries’ need for quality, and the confusing instructions from
HCFA and OIG.

See The Sanction Referral Authority of Peer Review Organizations.

16. Federation of State Medical Boards of the U. S., Inc., Annual Board Action Statistical
Package, April 5, 1995.




                                             F-2

Many medical boards are beginning to devote more attention to quality-of-care cases. But
most disciplinary actions taken by boards still focus on other issues, such as drug and
alcohol abuse, sexual abuse, and criminal violations.

17. Concerns about violating confidentiality requirements explain, at least in part, why so
little sharing has occurred. In 1990, Congress passed legislation calling for the PROS to
share information with the boards, but it has had little if any effect. It included a
provision that the sharing occur after the PROS’ grant physicians “notice and hearing. ”
Because of uncertainty about the meaning of this “notice and hearing” provision, however,
PROS still shared little information with the boards. (see The Peer Review Organizations
and State Medical Boards: A Vital Link)

18. Citizen Advocacy Center, Information Exchange Between Peer Review Organizations
and Medical Licensing Boards: Update and Repoti on CAC Survey, March 1992, and
Information Exchange Between Peer Review Organizations and Medical Licensing Boards:
Repoti on the 50 State Survey, November 1992.

19. The Center identified Alabama, California, Colorado, Iowa, Minnesota, Mississippi,
Ohio, Rhode Island, West Virginia, and Wisconsin as States with medical boards and
PROS both committed to sharing information.

20.   For example, the New York PRO initiated a cooperative project aimed at improving
prophylactic antibiotic administration. It collaborated with more than 70 hospitals to
conduct this project and, based on the project’s feedback, these hospitals are changing
their antibiotic administration policies. (from “IPRO Works with Hospitals to Implement
Feedback Effort, ” IPRO Quality Initiatives, Winter 1995.)

Another example involves the Alabama PRO’s use of data from the large-scale
Cooperative Cardiovascular Project. By working with the PRO, one hospital in Alabama
increased the proportion of patients receiving beta blockers when indicated from one-third
to all. It also increased the post-heart attack administration of aspirin from 70 percent to
95 percent of eligible patients. (from Linda Oberman Prager, “Undoing Case Review, ”
American Medical News, June 26, 1995.)




                                            F-3

